No. 19-161

3Sn the Supreme Court of the @Hniteb States
DEPARTMENT OF HOMELAND SECURITY, ET AL.,

Petitioners
V.

VLJAYAK UMAR THURAISSIGIAM,

Respondent.
ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Roy T. Englert, Jr., a member of the Bar of this Court, hereby certify that on
this 22nd day of January, 2020, I caused to be served by overnight carrier and by
electronic means three copies of the Brief of Amici: Curiae Asylum Law Professors in
Support of Respondent on each of the following counsel:
Lee Gelernt
American Civil Liberties Union Foundation
125 Broad Street
New York, NY 10004
lgelernt@aclu.org
Counsel for Petitioners
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

ROY T. ENGLERT, JR.

Counsel of Record

WENDY LIU
ROBBINS, RUSSELL, ENGLERT, ORSECK,
UNTEREINER & SAUBER LLP

2000 K Street, NW
Washington, DC 20006
(202) 775-4500
renglert@rob bins russe ll. com

